No.

2

! —

2QK

f;

- V f. -

T" P ^ (; F\ C [?. p

L.'

[

Supreme Court, U.S.
FILED

Mr! 1 6 2021
OFFICE OF THE CLFRK

IN THE
SUPREME COURT OF THE UNITED STATES

ANTONIO E. WILLS

— PETITIONER

(Your Name)
vs.
UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Eighth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ANTONIO E. WILLS

#01086-031

(Your Name)
FCI YAZOO CITY MEDIUM

P.O. BOX 5000

(Address)
YAZOO CITY, MS 39194
(City, State, Zip Code)

(Phone Number)

RECEIVED
MAR - 3 2021
gf^CEOFTIHE CLERK
.SUPREME COURT. II S

QUESTION(S) PRESENTED

[13-

1st Question Presented on Request and Application for COA

Did the appellate court err in denying a certificate of appealability on whether the district
court erred or alternatively abuse its discretion by denying Mr. Wills' §2255 motion based on its
finding that the claim he raised or attempted to raise in ground one of his pro se §2255 motion,
that he was actually innocent of career offender status, was waived by his plea agreement and
not a cognizable claim for relief pursuant to 28 U.S.C. § 2255 because his career offender
sentence did not exceed the applicable statutory maximum?
[2].

2nd Question Presented on Request and Application for COA

Did the appellate court err in denying a certificate of appealability on whether the district
court erred or alternatively abuse its discretion in failing to construe ground one to include - or
implicitly denying - Mr. Wills’ ineffective assistance of counsel claims related to counsels’
failure to raise a challenge to the use of his prior state conviction as a career offender
predicate at sentencing or on direct appeal?

i

LIST OF PARTIES

I*5! All parties appear in the caption of the case on the cover page.
I ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
United States v. ANTONIO E. WILLS, Case No. 4:16-CR-104-01, U.S.
District Court for the Western District of Missouri. Judgment entered December 20,
2018.
United States v. ANTONIO E. WILLS, No. 19-1041, U.S. Court of
Appeals for the Eighth Circuit. Judgment entered August 29, 2019.
ANTONIO E. WILLS v. United States, Case No. 4:19-cv-01043, U.S.
District Court for the Western District of Missouri. §2255 Judgment entered March 16,
2020.
ANTONIO E. WILLS v. United States, No. 20-1944, U.S. Court of
Appeals for the Eighth Circuit. Judgment denying COA on §2255 motion entered
September 15, 2020.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

.4

REASONS FOR GRANTING THE WRIT

.5

CONCLUSION

6

INDEX TO APPENDICES

APPENDIX A
APPENDIX B

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

Judgment of the United States Court of Appeals for the
Eighth Circuit denying COA, issued on September 15, 2020
Judgment of the United States District Court — W.D. MO.,
denying the Section 2255 motion, issued on March 16, 2020

TABLE OF AUTHORITIES CITED

CASES

Hill v. Masters, 836 F.3d 591 (6th Cir. 2016)
Narvaez v. United States, 641 F.3d 877 (7th Cir. 2011)

PAGE NUMBER

5

5,6

United States v. Havis, 907 F.3d 439 (6th Cir. 2018)

5

United States v. Newbold, 791 F.3d 455 (4th Cir. 2015)

5

STATUTES AND RULES

28 USC Section 2253

6

28 USC Section 2255

4,5,6

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

fed For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
Px] is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[xxl For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was September 15, 2020
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

This case involves a federal criminal defendant’s constitutional rights under the Sixth
Amendment, which provides in pertinent part:
In all criminal prosecutions, the accused shall enjoy the right to . . . have the assistance of
counsel for his defense.
This case also involves the application of 28 U.S.C. § 2253(c). 28 U.S.C. § 2253(c)
provides that:
(1) Unless a circuit justice or judge issues a certificate of appealability, an appeal may not
be taken to the court of appeals from—
(B) the final order in a proceeding under section 2255.
. . .(2) A certificate of appealability may issue under paragraph
(1) only if the applicant has made a substantial showing of the denial of a
constitutional right.

3.

STATEMENT OF THE CASE

On December 30, 2019, Mr. Wills initiated this proceeding by filing a
timely collateral attack on the judgment of the district court, via the
provisions of 28 U.S.C. §2255 (f)(1) (//§2255"). On January 3, 2020, the
district court ordered the United States to answer grounds one and two of
Mr. Wills' §2255 motion by February 3, 2020. On January 31, 2020, the
United States filed its suggestions in opposition to Mr. Wills' §2255 motion.
On March 10, 2020, Mr. Wills filed his reply to the United States'
suggestions in opposition. Six days later, the district court denied and
dismissed Mr. Wills' §2255 motion on the basis that his ground one claim
was subject to the sentence appeal waiver contained in his plea agreement
and not cognizable under 28 U.S.C. §2255 and that his ground two claim
was lacking in merit and also denied a certificate of appealability. On May
7, 2020, Mr. Wills timely filed his notice of appeal.
Mr. Wills unsuccessfully sough COA from the United States Court of
Appeals for the Eighth Circuit on the following issues:
[1].

1st Question Presented on Request and Application for COA

Did the District Court err or alternatively abuse its discretion by
denying Mr. Wills' §2255 motion based on its finding that the claim he
raised or attempted to raise in ground one of his pro se §2255 motion, that
he was actually innocent of career offender status, was waived by his plea
agreement and not a cognizable claim for relief pursuant to 28 U.S.C. §
2255 because his career offender sentence did not exceed the applicable
statutory maximum?
[2].

2nd Question Presented on Request and Application for COA

Did the district court err or alternatively abuse its discretion in failing
to construe ground one to include - or implicitly denying - Mr. Wills'
ineffective assistance of counsel claims related to counsels' failure to raise a
challenge to the use of his prior state conviction as a career offender
predicate at sentencing or on direct appeal?

4.

REASONS FOR GRANTING THE PETITION

Relevant to this application for COA, Mr. Wills raised, or attempted
to raise, claims that he: 1) was actually innocent of career offender status
and suffering both a violation of due process and a complete miscarriage
of justice by virtue of having to serve the resultant career offender
enhanced sentence; 2) had been deprived of the effective assistance of
appellate counsel; and 3) had been deprived of the effective assistance of
counsel by counsel's failure "to object to the characterization of Wills'
prior drug convictions as controlled substance offenses for purposes of
U.S.S.G. § 4131.2(b)." Specifically, Mr. Wills argued that his prior state
conviction did not qualify as a predicate "controlled substance offense"
within the meaning of U.S.S.G. §4B1.2(b), as clarified by the Sixth Circuit
in United States v. Havis, 907 F.3d 439 (6th Cir. 2018) and his appellate
counsel had been constitutionally ineffective for failing to present this
reality to the Eighth Circuit on direct review, in his initial §2255 Motion.
In his reply, Mr. Wills sought to amend this claim to include a claim that
his sentencing counsel had likewise been constitutionally ineffective for
failing to raise such challenge to the prior state conviction relied on by
the sentencing court to determine that Mr. Wills was a career offender.
Due to Mr. Wills' pro se status and the patently inartful §2255
motion he submitted, the district court should have construed his ground
one claim as a challenge to his 228-month sentence of imprisonment,
imposed a result of his misclassification as a career offender, as a
miscarriage of justice, cognizable and remediable under Hill v. Masters,
836 F.3d 591 (6th Cir. 2016) ("ground one-a"), and alternatively as a claim
that appellate counsel was constitutionally ineffective for failing to argue
the same on direct appeal ("ground one-b"). Additionally, the district
court was obligated to consider the amended claim, that counsel was
constitutionally ineffective at sentencing for failing to object to the use of
Mr. Wills' prior state drug conviction as a career offender predicate
("ground one-c"), presented in Mr. Wills' reply.
Clearly, these issues are cognizable on collateral review and
provide the constitutional dimension required to obtain COA. With
respect to ground one-a, the prevailing majority view is that a claim of
actual innocence of career offender status is cognizable on collateral
review. See e.g., Hill v. Masters, 836 F.3d 591, 600 (6th Cir. 2016); United
States v. Newbold, 791 F.3d 455, 460-61 (4th Cir. 2015); Narvaez v. United
5.

•*> ?

v

^tateS/ 641 R3d 877' 882 (7th Cir. 2011). At least one Circuit Court of
ppeals has held that a similar claim of misclassification as a career
offender under the Guidelines stated a violation of Due Process to the
extent necessary to satisfy § 2253's requirement of "a substantial showing
of the denial of a constitutional right," where the movant lacked the
requisite prior convictions. Narvaez, 674 F.3d at 626-27. Ground one-b and
ground one-c claim ineffective assistance of counsel in violation of Mr.
Wills' Fifth and Sixth Amendment rights, and are both cognizable and
involve a substantial showing of denial of constitutional rights.
. Mr- Wills respectfully submits that the appellate court erred in
denying COA on the district court's denial of his §2255 motion, which
constituted an abuse of discretion, or the question is at least debatable
amongst jurists of reason. This Court should grant COA on the issues
presented herein.
CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

I- IL.-2-I

6.

